No. 19-897
INTIIE

hpmnt C!lnurt nf t1Jt llniteb .8tatts
ToNY H. PHAM, Senior Official Performing the
Duties of the Director of U.S. Immigration and Customs
Enforcement, et al.,

Petitioners,

v.
MARIA .ANGELICA GUZMAN CHAVEZ, et al.,

Respondent.a.

ON WRIT OF CERTIORARI TO THE
UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT

CERTIFICATE OF SERVICE
I, Mark C. Fleming, a member of the bar of this Court, hereby certify that, on
this 12th day of November, 2020, all parties required to be served have been served
copies of the Brief for Amici Curiae National Immigration Litigation Alliance,
Northwest Immigrant Rights Project, Catho1ic Legal Immigration Network, Inc.,
Florence Immigrant & Refugee Rights Project, and Public Counsel in Support of
Respondents in this matter by overnight courier to the addresses below.

Coumel of Record for Petitioners
JEFFREY B. WALL

Coumel of Record for Rupondfflu

ACTING SoLICITOR GENERAL
U.S. DEPARTMENT OF JUSTICE

MCDERMO'IT WILL & EMERY

950 Pennsylvania A venue, NW

Washington, DC 20530-0001
(202) 514-2217
SupremeCtBriefs@USDOJ.gov

PAUL W.HUGHES

500 North Capitol Street, NW
Washington, DC 20001-1531
(202) 766-8981
PHughes@mwe.com

~~h,,~
MARK C. FLEMING
WILMER CUTLER PICKERING

HALE AND DORR LLP
60 State Street

Boston, MA 02109
(617) 526-6000
mark.fleming@wilmerhaJe.com

